No. 20-5766 and 20A49
IN THE SUPREME COURT OF THE UNITED STATES
CHRISTOPHER ANDRE VIALVA, PETITIONER
v.
UNITED STATES
(CAPITAL CASE)

CERTIFICATE OF SERVICE
It is hereby certified that all parties required to be served have been served with copies of
the BRIEF FOR THE UNITED STATES IN OPPOSITION TO PETITION FOR A WRIT
OF CERTIORARI AND TO APPLICATION FOR A STAY OF EXECUTION, via e-mail
and first-class mail, postage prepaid, this 22nd day of September 2020.
[See Attached Service List]

Jeffrey B. Wall
Acting Solicitor General
Counsel of Record
Department of Justice
Washington, D.C. 20530-0001
(202) 514-2217
September 22, 2020
Due to the continuing delay in receiving incoming mail at the Department of Justice, in
addition to mailing your brief via first-class mail, we would appreciate a fax or email copy of
your brief. If that is acceptable to you, please fax your brief to Charlene Goodwin, Case
Management Supervisor, Office of the Solicitor General, at (202) 514-8844, or email at
SupremeCtBriefs@USDOJ.gov. Ms. Goodwin’s phone number is (202) 514-2217 or 2218.
Thank you for your consideration of this request.

SERVICE LIST: 20-5766 and 20A49
JARED P. TYLER
TYLER LAW FIRM, PLLC
PO BOX 230804
HOUSTON, TX 77223
jptyler@tylerlawfirm.org
SUSAN M. OTTO
MICHAEL LIEBERMAN
P. O. Box 230804
215 Dean A. McGee Ave., Suite 109
Oklahoma City, Oklahoma 73102
Telephone: (405) 609-5930
Susan_Otto@fd.org
Michael_Lieberman@fd.org

